t
No.
IN THE
SUPREME COURT OF THE UNITED STATES

DAMARI JENNINGS — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
PROOF OF SERVICE
I, Damari Jennings, do swear or declare that on this date, May 12,
2021, as required by Supreme Court Rule 29 I have served the enclosed
Motion For Leave to Proceed in Forma Paupers and Petition for a Writ of
Certiorari on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing and envelope
containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Keith A. Stutes
Lafayette Parish District Attorney
P. O. Box 3306
Lafayette, LA 70502-3306
I declare under penalty of peijury that the foregoing is true and correct.
Executed on May 12, 2021
J^ignatur#

